2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-849
KRISTANALEA DYROFF, individually and
on behalf of the estate of Wesley Greer, deceased,
Petitioner,
v.
THE ULTIMATE SOFTWARE GROUP, INC.,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of March, 2020, send out
from Omaha, NE 3 package(s) containing * copies of the RESPONDENT THE ULTIMATE SOFTWARE GROUP, INC.’S
BRIEF IN OPPOSITION in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
LEWIS BRISBOIS
BISGAARD & SMITH LLP
JEFFRY A. MILLER,
jeff.miller@lewisbrisbois.com
*Counsel of Record
BRITTANY B. SUTTON,
brittany.sutton@
lewisbrisbois.com
701 B Street, Suite 1900
San Diego, CA 92101
Telephone: 619.233.1006
Facsimile: 619.233.8627

LEWIS BRISBOIS
BISGAARD & SMITH LLP
SHAWN A. TOLIVER,
shawn.toliver@
lewisbrisbois.com
JUSTIN S. KIM
justin.kim@lewisbrisbois.com
2185 N. California Blvd.,
Suite 300
Walnut Creek, CA 94596
Telephone: 925.357.3456
Facsimile: 925.478.3260
Attorneys for Defendant and Respondent
The Ultimate Software Group, Inc.

Subscribed and sworn to before me this 23rd day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

39515

SERVICE LIST
Dyroff, et al. v. The Ultimate Software Group, Inc., et al.
United States Supreme Court Number 19-849
Eric Schnapper
University of Washington
School of Law
P.O. Box 353020
Seattle, WA 98195
(206) 616-3167
schnapp@u.washington.edu
Attorneys for Plaintiffs and Appellants, Kristanalea Dyroff, individually and on behalf of the estate of Wesley Greer, deceased
*3 copies
David F. Slade, Esq.
Carney Bates & Pulliam, PLLC
519 W. 7th Street
Little Rock, AR 72201
(501) 312-8500
dslade@cbplaw.com
Attorneys for Plaintiffs and Appellants, Kristanalea Dyroff, individually and on behalf of the estate of Wesley Greer, deceased
*1 copy
Sin-Ting Mary Liu, Esq.
Aylstock Witkin Kreis & Overholtz, PLLC
875-A Island Drive, #144
Alameda, CA 94502
(510) 691-9566
mliu@awkolaw.com
Attorneys for Plaintiffs and Appellants, Kristanalea Dyroff, individually and on behalf of the estate of Wesley Greer, deceased
*1 copy

